No. 19-737
In tbe

'upreme Court of tije Eniteb 6tate5
JAMES NATHANIEL DOUSE,
Petitioner,
v.
UNITED STATES OF AMERICA, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
SECOND SUPPLEMENTAL
BRIEF FOR PETITIONER

JAMES NATHANIEL DOUSE
718 Thompson Lane
Bldg 108 Unit 124
Nashville, Tennessee 37204
(615) 848-4415
jamescnet90@yahoo.com
Petitioner Pro Se

1
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

SECOND SUPPLEMENTAL BRIEF

1

CONCLUSION

5

APPENDIX
Appendix 1 Respondent's Waiver of its Right to
Respond to Petition 19-737
(January 9, 2020)
App. 1
Appendix 2 North Carolina Mandatory
Directive

App. 2

TABLE OF AUTHORITIES
CASES
Carmichael v. Kellogg, Brown, & Root Serv., Inc.,
572 F.3d 1271 (11th Cir. 2009)
1, 3
Demjanjuk v. Petrovsky,
85-3435 (6th Cir. June 5, 1992)

4

STATUTES
NCGS 1-17

5

NCGS 1-19

5

NCGS 1-20

5

NCGS 35A-1101

5

RULE
Sup. Ct. R. 10

1
SECOND SUPPLEMENTAL BRIEF
Key, in my view, a petitioner cannot raise new
arguments in it petition for certiorari, as Petitioner in
19-737, did not. See Carmichael v. Kellogg, Brown, &
Root Serv., Inc., 572 F.3d 1271, 1293 (11th Cir. 2009)
(holding that issues not briefed on appeal are deemed
abandoned).
I.
The Eleventh Circuit's Court of Appeals on May 22,
2019, Decision's were Devastating and Destabilizing.
This issue comes up very OFTEN and is important
enough to warrant review. Two federal circuits clearly
disagree on a point of law. 4TH AND 11TH on North
Carolina Disability Statutes NCGS 1-17; 35A-1101
Definitions Incompetency and Guardianship; 1-19; 1-20
AND North Carolina Failure to Warn Statutes.
The alleged split between federal circuits regarding
how to answer a question of federal law which are Both
"clear" nor "deep." This case is "Not shallow" nor
exaggerated and warrant a grant of certiorari. These
issues are coming up with some frequency, as you know
and This court should be permitted to weigh in, is quite
warranted.
Petitioner 19-737 is concerned that Respondent
January 09, 2020, having waived its Right to respond
to Petition 19-737, is that of a signals That Petition 19737 is completely frivolous. However, the Petitioner
believes that this petition,19-737, qualifies and is
specifically the kind Of case where North Carolina
Mandatory Directive, North Carolina Failure To Warn

2
State Statutes are The type of case that The Supreme
Court looks for as this is a case "involving unsettled
questions of federal constitutional or statutory law of
general interest."
cases raising a federal question to which
different courts (usually federal circuit courts)
have given conflicting answers on an important
federal question,
cases clearly raising an important federal
question, and
cases that an appellate court decided in conflict
with governing Supreme Court precedent. (SCR
10.)
Cases where a District Court and a Circuit
Court misapplied Law such as The North
Carolina Disability Mandate and The North
Carolina Failure To Warn State Statutes where
these issues are not inextricably linked with the
facts of this case as The District Court has to
Fail to consider any new Evidence and has Fail
to Grant my Motion to Amend my Complaint
and Never issued ANY Order, verbal nor
written, GRANTING my Motion to Amend my
Complaint ....Furthermore, A Granted Order It's
not Docketed
Additionally, The Statements:
"Mr. Douse also filed a motion to amend his
complaint. In that motion, Mr. Douse states he
wishes to amend his complaint to add the
statement of Secretary of the Department of

3
Veterans Affairs Bob McDonald concerning the
ATSDR report on contamination of drinking
water at Camp Lejeune, as well as several points
of procedural histoly in the litigation."
Placed in the District Court December 05, 2016
Opinion/Ruling regarding my Motion are not my
statements. The District Court had no idea what I was
going to submit because it never Granted my Motion to
Amend. There is No Docket/Document number where
the District Court Granted my Motion so how could
they know what I was going to say? But rather the
statement above is that of the District Court or one of
its Staff Attorneys but not my words. I am sure this
was done because The District Court did not want me
to Amend my Complaint and did not want to include
NORTH CAROLINA DISABILITY MANDATES.
Respectfully, Had the Appeals Court Not caused the
Spilt, conflict and misapplication of law, where The
petition 19-737 justifiably seeks review, The Review by
the Appeals Court would have overturnedsome of the
factual findings of that District Courts that was
presented in its December 05, 2016 Ruling/Opinion.
Again, see Carmichael v. Kellogg, Brown„ & Root Serv.,
Inc., 572 F.3d 1271, 1293 (11th Cir. 2009) (holding that
issues not briefed on appeal are deemed abandoned).
These issues raised in Cert Petition 19-737
wereproperly preserved and warrant Review. See App.
2.
II.
Lastly, Removing a State Case in Default to Federal
District Court when defendant has violated Protected

4
constitutional Rights State Constitutional Rights and
Federal Statutes. The Default should be GRANTED to
this Petitioner 19-737. Petitioner has properly alleged
which specific action caused his Injuries and that the
"Circuit Courts, duty toprotect those who have been
adjudged incompetent extends beyond the trial courts
to the appellate courts." See id. (exercising supervisory
power to assume jurisdiction without an appeal and
review errors committed against an incompetent
"individual").
III.
It is not unprecedented for a Court of Appeals to
have its Mandate Recall when seeking Justice. See
Demjanjuk v. Petrovsky, 85-3435 (6th Cir. June 5,
1992)(reopening case on motion of the court), reprinted
in 10 F3.d 338,356 app.(6th Cir. 1993).
Petition 19-737 for a writ of certiorari Should be
GRANTED. The order that Recalls11th Circuit Court
of Appeals' Mandate where the judgments of the court
of appeals we reentered on May 22, 2019. A petition for
rehearing en banc was denied on September 5, 2019.
That Eleventh Circuit Court of Appeals, collectively,
have earned the Right to Stand on its Ruling and
therefore a review should be given as a just opportunity
to see rather their Ruling versus a properly viewed and
consideration of North Carolina Mandatory Directive
is applicable to this Petition 19-737.
Again, This Petitioner/Plaintiff never waived its
rightsto challenge on appeal an argument that he failed
to raise before the District Court. Again, as my Motion
to Amend my Complaint and Reconsideration was

5
Raised inFederal District court and Denied by Federal
District Court Again, Plaintiff was never allowed the
Opportunity to Raise argument submit new Evidence
As The opinion of the court of appeals is not published
in the Federal Reporter but is reprinted at 774 Fed.
Appx. 564.1 A prior opinion of the court of appeals (Pet.
App. 19-34) is reported at 768 F.3d 1378. The opinion
and order of the district court is reported at 263
F. Supp. 3d 1318. A prior opinion of the district court is
not published in the Federal Supplement but is
available at 2012 WL 12869566.
CONCLUSION
The judgment The Eleventh Circuit Court of
Appeals Judgement May 22, 2019 Ruling should be
vacated. Its Mandate Recalled and This case should
remanded to the United States Court of Appeals. In
light of North Carolina Mandatory Directives Properly
applying North Carolina Disability Statutes NCGS 117; 35A-1101 Definitions incompetency and
Guardianship; 1-19; 1-20 AND North Carolina Failure
to Warn Statutes.
Respectfully Submitted,
JAMES NATHANIEL DOUSE
718 Thompson Lane
Bldg 108 Unit 124
Nashville, Tennessee 37204
(615) 848-4415
jamescnet90@yahoo.com
Petitioner Pro Se

APPENDIX

APPENDIX
TABLE OF CONTENTS
Appendix 1 Respondent's Waiver of its Right to
Respond to Petition 19-737
(January 9, 2020)
App. 1
Appendix 2 North Carolina Mandatory
Directive

App. 2

App. 1

APPENDIX 1
IN THE SUPREME COURT
OF THE UNITED STATES
No: 19-0737
[Filed January 9, 2020]
DOUSE, JAMES NATHANIEL )
Petitioner
)
)
vs.
)
)
USA , ET AL.
)
)
WAIVER
The Government hereby waives its right to file a
response to the petition in this case, unless requested
to do so by the Court.
s/
NOEL J. FRANCISCO
Solicitor General
Counsel of Record
cc:
JAMES NATHANIEL DOUSE
718-THOMPSON LANE
BLDG 108 UNIT 124
NASHVILLE, TN 37204

App. 2

APPENDIX 2
§ 1-17. Disabilities.
(a) A person entitled to commence an action who is
under a disability at the time the cause of action
accrued may bring his or her action within the time
limited in this Subchapter, after the disability is
removed, except in an action for the recovery of real
property, or to make an entry or defense founded on the
title to real property, or to rents and services out of the
real property, when the person must commence his or
her action, or make the entry, within three years next
after the removal of the disability, and at no time
thereafter.
For the purpose of this section, a person' is under a
disability if the person meets one or more of the
following conditions:
The person is within the age of 18 years.
The person is insane.
The person is incompetent as defined in
G.S. 35A-1101(7) or (8).
(a 1) For those persons under a disability on January
1, 1976, as a result of being imprisoned on a criminal
charge, or in execution under sentence for a criminal
offense, the statute of limitations shall commence to
run and no longer be tolled from January 1, 1976.

App. 3
Notwithstanding the provisions of subsection (a)
of this section, and except as otherwise provided in
subsection (c) of this section, an action on behalf of a
minor for malpractice arising out of the performance of
or failure to perform professional services shall be
commenced within the limitations of time specified in
G.S. 1-15(c), except that if those time limitations expire
before the minor attains the full age of 19 years, the
action may be brought before the minor attains the full
age of 19 years.
Notwithstanding the provisions of subsection (a)
and (b) of this section, an action on behalf of a minor
for injuries alleged to have resulted from malpractice
arising out of a health care provider's performance of or
failure to perform professional services shall be
commenced within the limitations of time specified in
G.S. 1-15(c), except as follows:
If the time limitations specified in G.S.
1-15(c) expire before the minor attains the
full age of 10 years, the action may be
brought any time before the minor attains
the full age of 10 years.
If the time limitations in G.S. 1-15(c) have
expired and before a minor reaches the
full age of 18 years a court has entered
judgment or consent order under the
provisions of Chapter 7B of the General
Statutes finding that said minor is an
abused or neglected juvenile as defined in
G.S. 7B-101, the medical malpractice
action shall be commenced within three
years from the date of such judgment or

App. 4
consent order, or before the minor attains
the full age of 10 years, whichever is
later.
(3)

If the time limitations in G.S. 1-15(c) have
expired and a minor is in legal custody of
the State, a county, or an approved child
placing agency as defined in G.S.
131D-10.2, the medical malpractice action
shall be commenced within one year after
the minor is no longer in such legal
custody, or before the minor attains the
full age of 10 years, whichever is later.
Chapter 35A.

Incompetency and Guardianship.
SUBCHAPTER I. PROCEEDINGS TO
DETERMINE INCOMPETENCE.
Article 1:
Determination of Incompetence.
§ 35A-1101. Definitions.
When used in this in this Subchapter:
(1)

"Autism" means a physical disorder of the brain
which causes disturbances in the developmental
rate of physical, social, and language skills;
abnormal responses to sensations; absence of or
delay in speech or language; or abnormal ways
of relating to people, objects, and events. Autism
occurs sometimes by itself and sometimes in

App. 5
conjunction with other brain-functioning
disorders.
"Cerebral palsy" means a muscle dysfunction,
characterized by impairment of movement, often
combined with speech impairment, and caused
by abnormality of or damage to the brain.
"Clerk" means the clerk of superior court.
"Designated agency" means the State or local
human services agency designated by the clerk
in the clerk's order to prepare, cause to be
prepared, or assemble a multidisciplinary
evaluation and to perform other functions as the
clerk may order. A designated agency includes,
without limitation, State, local, regional, or area
mental health, intellectual disability, vocational
rehabilitation, public health, social service, and
developmental disabilities agencies, and
diagnostic evaluation centers.
(5)

"Epilepsy" means a group of neurological
conditions characterized by abnormal electricalchemical discharge in the brain. This discharge
is manifested in various forms of physical
activity called seizures, which range from
momentary lapses of consciousness to convulsive
movements.
"Guardian ad litem" means a guardian
appointed pursuant to G.S. 1A-1, Rule 17, Rules
of Civil Procedure.
"Incompetent adult" means an adult or
emancipated minor who lacks sufficient capacity

App. 6
to manage the adult's own affairs or to make or
communicate important decisions concerning the
adult's person, family, or property whether the
lack of capacity is due to mental illness,
intellectual disability, epilepsy, cerebral palsy,
autism, inebriety, senility, disease, injury, or
similar cause or condition.
"Incompetent child" means a minor who is at
least 17 1/2 years of age and who, other than by
reason of minority, lacks sufficient capacity to
make or communicate important decisions
concerning the child's person, family, or property
whether the lack of capacity is due to mental
illness, intellectual disability, epilepsy, cerebral
palsy, autism, inebriety, disease, injury, or
similar cause or condition.
"Indigent" means unable to pay for legal
representation and other necessary expenses of
a proceeding brought under this Subchapter.
"Inebriety" means the habitual use of alcohol or
drugs rendering a person incompetent to
transact ordinary business concerning the
person's estate, dangerous to person or property,
cruel and intolerable to family, or unable to
provide for family.
"Interim guardian" means a guardian, appointed
prior to adjudication of incompetence and for a
temporary period, for a person who requires
immediate intervention to address conditions
that constitute imminent or foreseeable risk of

App.' 7
harm to the person's physical well-being or to
the person's estate.
"Mental illness" means an illness that so lessens
the capacity of a person to use self-control,
judgment, and discretion in the conduct of the
person's affairs and social relations as to make
it necessary or advisable for the person to be
under treatment, care, supervision, guidance, or
control. The term "mental illness" encompasses
"mental disease", "mental disorder",
"unsoundness of mind", and "insanity".
"Mental retardation" means significantly
subaverage general intellectual functioning
existing concurrently with deficits in adaptive
behavior and manifested before age 22.
"Multidisciplinary evaluation" means an
evaluation that contains current medical,
psychological, and social work evaluations as
directed by the clerk and that may include
current evaluations by professionals in other
disciplines, including without limitation
education, vocational rehabilitation,
occupational therapy, vocational therapy,
psychiatry, speech-and-hearing, and
communications disorders. The evaluation is
current if made not more than one year from the
date on which it is presented to or considered by
the court. The evaluation shall set forth the
nature and extent of the disability and
recommend a guardianship plan and program.

App. 8
"Respondent" means a person who is alleged to
be incompetent in a proceeding under this
Subchapter.
"Treatment facility" has the same meaning as
"facility" in G.S. 122C-3(14), and includes group
homes, halfway houses, and other communitybased residential facilities.
"Ward" means a person who has been
adjudicated incompetent or an adult or minor for
whom a guardian has been appointed by a court
of competent jurisdiction.
§ 1-19. Cumulative disabilities.
When two or more disabilities coexist at the time
the right of action accrues, or when one disability
supervenes an existing one, the limitation does not
attach until they all are removed.
§ 1-20. Disability must exist when right of action
accrues.
No person may avail himself of a disability except as
authorized in G.S. 1-19, unless it existed when his right
of action accrued.
§ 99B-5. Claims based on inadequate warning or
instruction.
(a) No manufacturer or seller of a product shall be
held liable in any product liability action for a claim
based upon inadequate warning or instruction unless
the claimant proves that the manufacturer or seller
acted unreasonably in failing to provide such warning
or instruction, that the failure to provide adequate

App. 9
warning or instruction was a proximate cause of the
harm for which damages are sought, and also proves
one of the following:
At the time the product left the control of the
manufacturer or seller, the product, without
an adequate warning or instruction, created
an unreasonably dangerous condition that
the manufacturer or seller knew, or in the
exercise of ordinary NC General Statutes Chapter 99B 3 care should have known,
posed a substantial risk of harm to a
reasonably foreseeable claimant.
After the product left the control of the
manufacturer or seller, the manufacturer or
seller became aware of or in the exercise of
ordinary care should have known that the
product posed a substantial risk of harm to a
reasonably foreseeable user or consumer and
failed to take reasonable steps to give
adequate warning or instruction or to take
other reasonable action under the
circumstances.
Notwithstanding subsection (a) of this section,
no manufacturer or seller of a product shall be held
liable in any product liability action for failing to warn
about an open and obvious risk or a risk that is a
matter of common knowledge.
Notwithstanding subsection (a) of this section, no
manufacturer or seller of a prescription drug shall be
liable in a products liability action for failing to provide
a warning or instruction directly to a consumer if an

App. 10
adequate warning or instruction has been provided to
the physician or other legally authorized person who
prescribes or dispenses that prescription drug for the
claimant unless the United States Food and Drug
Administration requires such direct consumer warning
or instruction to accompany the product.
NORTH CAROLINA GENERAL ASSEMBLY
1975 SESSION
CHAPTER 252
SENATE BILL 276
AN ACT TO AMEND G.S. 1-17 SO AS TO
ELIMINATE IMPRISONMENT AS A
DISABILITY UNDER THE STATUTE OF
LIMITATIONS AND TO SUBJECT THE CIVIL
RIGHTS ACT OF 1871. 42 U.S.C. § 1983. TO
THE NORTH CAROLINA STATUTE OF
LIMITATIONS.
The General Assembly of North Carolina enacts:
Section 1. G.S. 1-17 is hereby rewritten to read as
follows: "A person entitled to commence an action who
is at the time the cause of action accrued either
(1) within the age of 18 years; or (2) insane;
may bring this action in the time herein limited, after
the disability is removed, except in an action for the
recovery of real property, or to make an entry or
defense founded on the title to real property, or to rents
and services out of the same, when he must commence
his action, or make his entry, within three years next

App. 11
after the removal of the disability, and at no time
thereafter."
Sec. 2. G.S. 1-52(2) is hereby rewritten to read as
follows: "Upon a liability created by statute, either
state or federal, unless some other time is mentioned in
the statute creating it."
Sec. 3. For those persons under a disability on the
effective date of this Chapter as a result of being
imprisoned on a criminal charge, or in execution under
sentence for a criminal offense, the statute of
limitations shall commence to run and no longer be
tolled from the effective date of the enactment of this
Chapter.
Sec. 4. G.S. 1-52 is hereby amended to add a new
subsection as follows: "( 13) against a public officer, for
a trespass, under color of his office."
Sec. 5. G.S. 1-54. subsection (1) is deleted and the
remaining subsections of G.S. 1-54 are renumbered
accordingly.
Sec. 6. This act shall be in full force and effect
January 1. 1976. In the General Assembly read three
times and ratified, this the 12th day of May, 1975.

